                 The Accounts Management Program Has
                  Annual Performance Goals but Should
                  Develop Long-Term Performance Goals

                                     May 2005

                       Reference Number: 2005-40-079




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       May 6, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The Accounts Management Program
                                    Has Annual Performance Goals but Should Develop
                                    Long-Term Performance Goals (Audit # 200440037)


      This report presents the results of our review of the Accounts Management Program.
      The overall objective of this review was to determine whether management policies and
      the purpose, strategies, and plans of the Accounts Management Program were
      effectively designed to ensure the Program meets the Internal Revenue Service’s (IRS)
      goal of improving customer service. We also determined whether the Accounts
      Management Program is effectively designed to ensure it meets the requirements of the
      Government Performance and Results Act (GPRA) of 1993.1 This review is included in
      our Fiscal Year (FY) 2004 Annual Audit Plan under the title Toll-Free Program
      Measures and Goals.
      The IRS’ mission is to “provide America’s taxpayers top quality service by helping them
      understand and meet their tax responsibilities and by applying the tax law with integrity
      and fairness to all.” In line with this mission, employees in the Accounts Management
      Program help taxpayers by responding to customer inquiries via electronic media,
      telephone, and correspondence. As part of the Wage and Investment (W&I) Division’s
      strategic planning process, the Accounts Management Program has a comprehensive
      annual strategic planning process to help ensure it manages resources and meets its
      annual performance goals. The Accounts Management Program adequately
      coordinates with other components in the W&I Division and with other business units2 as

      1
        Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
      39 U.S.C.).
      2
        The IRS is organized into four major operating units, aligned by types of taxpayers: individual taxpayers;
      businesses and self-employed taxpayers; corporations with assets greater than $10 million; and employee benefit
      plans, tax-exempt organizations (such as charities and social welfare groups), and governmental entities.
                                            2

appropriate. In addition, the Accounts Management Program has filtered its mission
down to the front-line staff so the employees recognize the importance of their jobs in
relation to the IRS’ overall goal of helping taxpayers understand and meet their tax
obligations.
Although the Accounts Management Program has a comprehensive strategic planning
process, it does not currently report long-term performance goals that reflect the
Program’s ability to provide top-quality customer service when responding to individual
taxpayer inquiries electronically through the Internet (via the IRS web site, IRS.gov), by
telephone, and through correspondence. Instead, the Accounts Management Program
has developed multiple annual goals and workload indicators that provide a sense of
how the Program is working. In addition, the Accounts Management Program has
developed a Concept of Operations that outlines internal goals for the organization.
However, these internal goals are not provided to outside stakeholders for use in
evaluating whether the Program is operating effectively and efficiently. We
recommended the Commissioner, W&I Division, develop long-term goals that define the
level of performance with set time periods to be achieved by the Accounts Management
Program.
Management’s Response: IRS management agrees in concept with our
recommendation; however, they state that the W&I Division Accounts Management
Program is not a budget-level program as defined and is, therefore, not required to
establish long-term goals. The Accounts Management Program is represented by the
Assistance budget activity.
However, the W&I Division is working with the Chief Financial Officer to establish
appropriate long-term goals for the Assistance budget activity. Included for the
Accounts Management Program are targets for achievement in both Level of Service
and Accuracy of Tax Law and Accounts inquiries.
The long-term goals to be used beginning in FY 2006 will be reflected in the IRS’
FY 2007 budget submission scheduled for delivery to the Department of the Treasury in
June 2005. Management’s complete response to the draft report is included as
Appendix VI.
Office of Audit Comment: We are pleased that IRS management agrees in concept with
our recommendation and the W&I Division is partnering with the Chief Financial Officer
in establishing meaningful long-term goals aligned with budget activities. We believe
the Accounts Management Program is a major function and operation of the IRS as
defined by the GPRA. As such, it is responsible for achieving performance goals and
objectives in providing key taxpayer services and should be accountable for establishing
long-term goals.

Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
              The Accounts Management Program Has Annual Performance Goals
                     but Should Develop Long-Term Performance Goals




                                                  Table of Contents


Background ............................................................................................... Page 1
The Accounts Management Program’s Annual Strategic Planning
Process Has Established Annual Performance Goals............................... Page 5
Long-Term Performance Goals Are Needed............................................. Page 8
         Recommendation 1: .......................................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Accounts Management Program Organization Chart
Fiscal Year 2004 ....................................................................................... Page 17
Appendix V – Accounts Management Program Performance
Measures .................................................................................................. Page 18
Appendix VI – Management’s Response to the Draft Report .................... Page 20
         The Accounts Management Program Has Annual Performance Goals
                but Should Develop Long-Term Performance Goals

                              Taxpayers are responsible for filing tax returns that report
Background
                              the full amount of taxes owed and for paying any taxes due.
                              The Internal Revenue Service’s (IRS) mission is to “provide
                              America’s taxpayers top quality service by helping them
                              understand and meet their tax responsibilities and by
                              applying the tax law with integrity and fairness to all.”
                              The IRS accomplishes this, for example, by responding to
                              taxpayers’ questions through electronic media, telephone,
                              and correspondence. Taxpayers can access the IRS web
                              site, IRS.gov, to review information about tax law and
                              determine if they qualify for certain deductions or credits.
                              They can call the IRS toll-free telephone numbers to ask
                              IRS employees tax law questions or ask how or where to
                              file their tax returns. When trying to resolve account-related
                              issues, taxpayers can call the IRS toll-free telephone
                              numbers or write to the IRS. When taxpayers understand
                              their tax obligations and are given tools that make it easier
                              to meet their obligations, they are more likely to file their
                              taxes and comply with the law.
                              Although accessing the IRS web site is the single most
                              frequent means of contact with the IRS for taxpayers, the
                              second most frequent means is calling the IRS toll-free
                              telephone assistance numbers. For Fiscal Year (FY) 2004,
                              IRS.gov received 152.7 million visits and assistors
                              answered over 44.6 million toll-free telephone calls. In
                              addition, the IRS responded to and resolved 10.3 million
                              taxpayer written account inquiries. Figure 1 shows the
                              number of services provided by the IRS through its various
                              assistance channels.




                                                                                     Page 1
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                             Figure 1: Services Provided by the IRS in FY 2004




                     Source: IRS management reports.

                     The IRS Wage and Investment (W&I) Division is
                     responsible for serving over 120 million individual
                     taxpayers.1 W&I Division employees in the Accounts
                     Management Program of the Customer Account Services
                     (CAS) organization are responsible for responding to
                     individual taxpayer inquiries through IRS.gov, by
                     telephone, and through correspondence. Accounts
                     Management Program employees are located in 17 sites2
                     across the nation. FY 2004 resource levels for the Program
                     were $459.7 million, including approximately
                     6,861 permanent employees and 3,048 seasonal employees.


                     1
                       Individual taxpayers filing a U.S. Individual Income Tax Return
                     (Form 1040) whose income is from wages and investments, such as
                     interest, dividends, or capital gains.
                     2
                       The Accounts Management Program has 17 call sites staffed with
                     permanent and seasonal employees. Employees at five of the call sites
                     are co-located with campuses and currently answer telephone calls and
                     process written account inquiries. The remaining employees are located
                     at 12 call sites and mostly answer telephone calls. Campuses are the
                     data processing arm of the IRS. The campuses process paper and
                     electronic submissions, correct errors, and forward data to the
                     Computing Centers for analysis and posting to taxpayer accounts.
                                                                                   Page 2
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                     For FY 2005, resource levels are estimated at
                     $477.5 million. See Appendix IV for an organization chart
                     of the Accounts Management Program.
                     The Government Performance and Results Act of 1993
                     (GPRA)3 was established to improve the confidence of the
                     American people in the capability of the Federal
                     Government by holding Federal agencies accountable for
                     achieving program results. This involved the initiation of
                     program performance reform by setting program goals,
                     measuring program performance against those goals, and
                     reporting publicly on the progress. In addition, the Act
                     promotes a focus on results, service quality, and customer
                     satisfaction and requires Federal Government managers to
                     plan for meeting program objectives and providing
                     information about program results and service quality. In
                     essence, the GPRA required Federal Government agencies
                     to establish a mission, goals, and performance measures and
                     link goals to results.
                     The GPRA requires executive agencies to prepare multiyear
                     strategic plans, annual performance plans, and annual
                     performance reports on prior year accomplishments.
                     Together, these elements create a recurring cycle of
                     reporting, planning, and execution. Strategic plans have
                     six basic requirements and are the starting point for setting
                     goals and measuring progress toward achieving them. This
                     review focused on the first two requirements as they relate
                     to the W&I Division Accounts Management Program.
                     Specifically, the strategic plan must contain:
                     •   A comprehensive mission statement covering the major
                         functions and operations of the agency.
                     •   General goals and objectives, including outcome-related
                         goals and objectives, for the major functions and
                         operations of the agency.
                     The GPRA also has six basic requirements for annual
                     performance plans. For this review, we focused on
                     the first two requirements as they relate to the



                     3
                      Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                     sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                    Page 3
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                     W&I Division Accounts Management Program.
                     Specifically, the performance plan must:
                     •   Establish performance goals to define the level of
                         performance to be achieved by a program activity.
                     •   Express such goals in an objective, quantifiable, and
                         measurable form.
                     The President’s Management Agenda (PMA),4 announced in
                     August 2001, was issued to build on the GPRA by
                     providing for a systematic approach to accounting for
                     performance when making budget decisions. The PMA is a
                     strategy for improving the management and performance of
                     the Federal Government and stresses the need to provide a
                     greater focus on performance management. It is focused on
                     performance-based budgeting, which means money is
                     allocated based on results rather than perceived needs. The
                     PMA set five Government-wide initiatives. Two initiatives
                     that relate to this report are Improve Financial Performance
                     and Budget and Performance Integration.
                     The Office of Management and Budget (OMB) assists the
                     President in the development and implementation of budget,
                     program, management, and regulatory policies. The OMB
                     provides guidance to Federal Government agencies in
                     meeting the GPRA and PMA requirements. Program
                     performance guidance includes descriptions, overviews, and
                     definitions of strategic plans, annual program performance
                     reports, and performance budgets. The OMB provides the
                     following definitions that pertain specifically to this review:
                         •    Performance Goals – the target levels of
                              performance expressed as a measurable objective,
                              against which actual achievement can be compared.
                              To be complete, performance goals should
                              incorporate targets and time periods into
                              performance measures.
                         •    Performance Budget – a budget presentation that
                              clearly links performance goals with costs for
                              achieving a target level of performance. It links


                     4
                      Executive Office of the President, Office of Management and Budget,
                     The President’s Management Agenda, Fiscal Year 2002.
                                                                                  Page 4
          The Accounts Management Program Has Annual Performance Goals
                 but Should Develop Long-Term Performance Goals

                                       strategic goals with related long-term and annual
                                       performance goals with the costs of specific
                                       activities to influence the outcomes about which
                                       budget decisions are made.
                               This review was performed at the W&I Division
                               Headquarters in Atlanta, Georgia, and the Accounts
                               Management Program offices in Atlanta, Georgia, and
                               Dallas, Texas, during the period August through
                               December 2004. The audit was conducted in accordance
                               with Government Auditing Standards. Detailed information
                               on our audit objective, scope, and methodology is presented
                               in Appendix I. Major contributors to the report are listed in
                               Appendix II.
                               As part of the W&I Division strategic planning process, the
The Accounts Management
                               Accounts Management Program has a comprehensive
Program’s Annual Strategic
                               annual strategic planning process to help ensure it manages
Planning Process Has
                               resources and meets its annual performance goals. The
Established Annual
                               Accounts Management Program’s mission, to provide
Performance Goals
                               top-quality customer service by responding to taxpayers’
                               questions and helping them understand and meet their tax
                               responsibilities, supports the IRS and W&I Division
                               missions and appropriately covers the major functions and
                               operations of the Program. In addition, the Accounts
                               Management Program has established annual goals and
                               objectives to ensure planning and management of the
                               Program are focused.
                               The CAS organization’s strategy and planning includes the
                               Accounts Management Program and is rolled into the
                               W&I Division’s strategy and program plan. The Account
                               Management Program’s mission appropriately focuses on
                               this strategy. Recent priorities have appropriately included
                               strategies to reduce W&I Division taxpayer burden by
                               improving quality and efficiency. Operational priorities
                               included:
                               •   Providing corporate workload management for paper
                                   correspondence to increase timeliness and quality of
                                   responses through planned correspondence imaging
                                   technology.
                               •   Identifying less-costly methods of service delivery to
                                   reduce customer dependence on traditional methods of
                                                                                     Page 5
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                         delivery, improving quality, and using resources more
                         efficiently.
                     •   Developing and implementing improved tools for more
                         efficient and accurate delivery of customer services.
                     To help ensure its strategic planning efforts are successful,
                     the Accounts Management Program adequately coordinates
                     with other organizations in the W&I Division and with other
                     IRS business units5 as appropriate. It also collaborates
                     extensively with the Joint Operations Center (JOC)6
                     function to ensure resources are available and efficiently
                     used. Yearly meetings are held with all managers to discuss
                     the performance goals.
                     Program management has filtered its mission down to the
                     front-line staff so the employees recognize the importance
                     of their jobs in relation to the Accounts Management
                     Program’s mission and the IRS’ overall goal of helping
                     taxpayers understand and meet their tax obligations. For
                     example, interviews with staff at one site showed that all
                     employees interviewed could verbalize (paraphrase) the
                     mission of the Accounts Management Program and explain
                     how the work they do fits into that mission.
                     As part of the strategic planning process, CAS organization
                     management has established short-term (annual)
                     performance measures that gauge the Accounts
                     Management Program’s activities and productivity. To
                     monitor activity and production, the CAS organization and
                     Accounts Management Program management analyze
                     information related to volumes and quality of responses in
                     the telephone operations and paper programs. For example:




                     5
                       The IRS is organized into four major operating units, aligned by types
                     of taxpayers: individual taxpayers; businesses and self-employed
                     taxpayers; corporations with assets greater than $10 million; and
                     employee benefit plans, tax-exempt organizations (such as charities and
                     social welfare groups), and governmental entities.
                     6
                       The JOC is another function within the CAS organization; it provides
                     the technology for electronic media, telephone, and written
                     correspondence received from taxpayers and captures management
                     information.
                                                                                      Page 6
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                         •   The volume of toll-free automated calls answered,
                             assistor calls answered, and assistor services
                             provided.
                         •   The percentage of correct responses provided by
                             assistors to account-related and tax law telephone
                             inquiries.
                         •   The volume of customer accounts resolved, as well
                             as the percentage of those accurately resolved.
                         •   The volume of CAS organization web services
                             provided.
                     These are valid indicators or measures to help management
                     set goals and determine whether resources are used properly
                     or to gauge the activity or productivity (the output) of the
                     Accounts Management Program. They are also intended to
                     ensure consistency throughout the W&I Division. The
                     measures ensure data are available to provide a basis for
                     measuring and improving work products by identifying
                     sources of error, identifying and analyzing trends,
                     recommending and implementing corrective actions, and
                     following up with reviews to ensure the corrective actions
                     were effective.
                     In addition, specific performance goals are set for each
                     Accounts Management Program call site based on these
                     strategic planning efforts. For example, based on factors
                     such as the number of employees and employee experience,
                     1 call site has a tax law customer accuracy goal of
                     83.6 percent, while another has a tax law customer accuracy
                     rate of 81.8 percent. One campus/call site has an
                     adjustments closure goal of 2,103 per Full-Time Equivalent
                     (FTE)7, whereas another campus/call site’s goal is to close
                     2,694 adjustments per FTE.
                     In FY 2005, the W&I and Small Business/Self-Employed
                     Divisions CAS organizations were consolidated. Although
                     the FY 2005 measures will remain separate for the two
                     organizations, W&I Division CAS management has already

                     7
                      An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours
                     multiplied by the number of compensable days in a particular fiscal
                     year. For FY 2004, 1 FTE was equal to 2,096 staff hours. For FY 2005,
                     1 FTE is equal to 2,088 hours.
                                                                                   Page 7
           The Accounts Management Program Has Annual Performance Goals
                  but Should Develop Long-Term Performance Goals

                                reviewed, combined, and updated the consolidated FY 2006
                                Accounts Management Program performance goals and
                                measures.
                                The annual comprehensive and coordinated planning and
                                monitoring efforts used by the W&I Division, CAS
                                organization, and Accounts Management Program office
                                ensure the Program addresses customer and employee
                                needs, focuses on improving its overall operations, and
                                prioritizes its limited resources.
                                The Accounts Management Program does not currently
Long-Term Performance Goals
                                report long-term performance goals that reflect the
Are Needed
                                Program’s ability to provide top-quality customer service
                                when responding to individual taxpayer inquiries
                                electronically through IRS.gov, by telephone, and through
                                correspondence. Instead, the Accounts Management
                                Program has developed multiple annual goals and workload
                                indicators that provide a sense of how the Program is
                                working. In addition, the Accounts Management Program
                                has developed a Concept of Operations (CONOPS) that
                                outlines internal goals for the organization. However, these
                                internal goals are not provided to outside stakeholders for
                                use in evaluating whether the Program is operating
                                effectively and efficiently.
                                The Accounts Management Program has established annual
                                measures and goals that are used for GPRA reporting
                                purposes. These performance measures have included:
                                    •   Toll-Free Level of Service Rate.
                                    •   Assistor Calls Answered.
                                    •   Customer Accuracy Rates.
                                        o Toll-Free Tax Law.
                                        o Toll-Free Accounts.
                                    •   Customer Satisfaction Rates.
                                        o Toll-Free.
                                        o Customer Accounts Correspondence.
                                In FY 2004, the Accounts Management Program developed
                                the outcome measure, Volume of Accounts Management
                                Customer Contacts per Staff Year. This measure, once
                                                                                      Page 8
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                     baselined, will provide the IRS an efficiency measure to
                     determine if the Program’s activities achieve results without
                     wasted resources, time, effort, or money. See Appendix V
                     for details on these measures. In addition, as part of the
                     IRS’ Balanced Measures, the Accounts Management
                     Program measures and reports the Employee Satisfaction
                     Rate. Data for this measure are obtained through surveys.
                     In 2002, the Government Accountability Office (GAO)
                     reported the IRS does not report cost of service measures
                     information.8 The IRS agreed and is in the process of
                     developing a mechanism that will provide cost information
                     for performance activities.
                     However, the Accounts Management Program is currently
                     not reporting long-term goals externally. The Program uses
                     long-term goals to project to FY 2010, adjusting the goals
                     based on mathematical algorithms rather than on a
                     determination or analysis of actions the Accounts
                     Management Programs has taken or plans to take to provide
                     top-quality service. However, the goals used for GPRA
                     reporting purposes in its annual Performance and
                     Accountability Report include only actual results for the
                     3 preceding fiscal years, planned and actual results for the
                     current year being reported, and the following year’s
                     planned target for the measure.
                     The OMB states that long-term performance measures
                     should include two or three specific, easily understood
                     outcome measures that directly and meaningfully support a
                     program’s purpose over a long period of time, usually 5 to
                     10 years. The Accounts Management Program recognizes
                     the need for long-term goals and measures. In the past, it
                     has focused on annual goals and measures while working
                     toward developing long-term measures and goals through its
                     CONOPS.
                     The CONOPS outlines the desired future state of the
                     Accounts Management Program and contains specific
                     long-term performance measures that focus on outcomes
                     and reflect the purpose of the Program. Many of the

                     8
                      Tax Administration: IRS Needs to Further Refine Its Tax Filing
                     Season Performance Measures (Reference Number GAO-03-143, dated
                     November 2002).
                                                                             Page 9
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                     CONOPS measures and goals are dependent on new
                     technology and processes being implemented timely,
                     including implementing new computer systems as part of
                     the IRS’ overall modernization efforts. In addition, the
                     CONOPS does not provide a link between the annual goals
                     reported for GPRA purposes and long-term goals
                     established in its vision.
                     Federal Government agencies are expected to identify
                     high-quality outcome measures and accurately monitor
                     performance of programs. The GPRA and related OMB
                     circulars require Federal Government agencies, as part of
                     the strategic planning process, to develop general goals and
                     objectives, including outcome-related goals and objectives,
                     for the major functions and operations of the agency.
                     Agencies must develop goals and objectives that define the
                     level of performance with set time periods to be achieved by
                     a program activity. Those goals should be quantifiable and
                     measurable unless authorized to be in an alternative form.
                     The IRS will not be able to meet the PMA goals for
                     improving financial performance and integrating budgeting
                     and performance. The PMA contains five
                     Government-wide and nine agency-specific goals to
                     improve Federal Government management and deliver
                     results that matter to the American people.
                     As a part of the PMA, the OMB assesses performance of
                     program activities, focusing on their contribution to an
                     agency’s achievement of its strategic and program
                     performance goals. The assessments help link performance
                     and budget decisions. In the case of shared measures, each
                     program should be able to demonstrate how it contributes to
                     the outcome or output measured. Figure 2 shows the
                     relationship of the GPRA, the PMA, and the OMB to the
                     Accounts Management Program.




                                                                         Page 10
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                     Figure 2: Relationship of the GPRA, the PMA, and the OMB to the
                                      Accounts Management Program




                     Source: GPRA, PMA, OMB Memorandum #M-02-02, dated
                     October 2001, Office of Management and Budget Circular A-11,
                     IRS Performance Measures Workshop.

                     Yet the IRS has not established long-term goals to reflect
                     when the Program will achieve top-quality customer service
                     and at what level the Program is deemed successful. Not
                     reporting long-term goals impairs management’s and the
                     Congress’ ability to make informed decisions related to the
                     W&I Division’s Accounts Management Program resource
                     levels.




                                                                               Page 11
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                     Recommendation

                     The Commissioner, W&I Division, should:
                     1. Develop long-term goals that define the level of
                        performance with set time periods to be achieved by the
                        Accounts Management Program.
                     Management’s Response: IRS management agrees in
                     concept with our recommendation; however, they state that
                     the W&I Division Accounts Management Program is not a
                     budget-level program as defined and is, therefore, not
                     required to establish long-term goals. The Accounts
                     Management Program is represented by the Assistance
                     budget activity.
                     The W&I Division is working with the Chief Financial
                     Officer to establish appropriate long-term goals for the
                     Assistance budget activity. Included for the Accounts
                     Management Program are targets for achievement in both
                     Level of Service and Accuracy of Tax Law and Accounts
                     inquiries.
                     The long-term goals to be used beginning in FY 2006 will
                     be reflected in the IRS’ FY 2007 budget submission
                     scheduled for delivery to the Department of the Treasury in
                     June 2005.
                     Office of Audit Comment: We are pleased that IRS
                     management agrees in concept with our recommendation
                     and the W&I Division is partnering in the efforts led by
                     the Chief Financial Officer in establishing meaningful
                     long-term goals aligned with budget activities. We believe
                     the Accounts Management Program is a major function and
                     operation of the IRS as defined by the GPRA. As such, it is
                     responsible for achieving performance goals and objectives
                     in providing key taxpayer services and should be
                     accountable for establishing long-term goals.




                                                                         Page 12
            The Accounts Management Program Has Annual Performance Goals
                   but Should Develop Long-Term Performance Goals

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether management policies and the
purpose, strategies, and plans of the Accounts Management Program were effectively designed
to ensure the Program meets the Internal Revenue Service’s (IRS) strategic goal of improving
customer service. We also determined whether the Accounts Management Program is
effectively designed to ensure it meets the requirements of the Government Performance and
Results Act of 1993.1
This review followed the Office of Management and Budget’s Performance Assessment Rating
Tool, Sections 1 and 2, which provide the information necessary to determine whether a Federal
Government program has laid a solid foundation to be successful in achieving its goals and
addressing its mission. To accomplish our objective, we:
I.      Determined whether the design and purpose for the Accounts Management Program was
        clear and properly aligned with the mission of the Wage and Investment (W&I) Division
        and the IRS.
        A. Contacted the IRS National Headquarters Office of Research and the W&I Division
           Research Office to identify current and planned research being done that would affect
           the goals of the Accounts Management Program.
        B. Determined whether the Accounts Management Program’s purpose was clear and
           addressed a specific interest, problem, or need.
             1. Researched the IRS Internet web site; the W&I Division, Customer Account
                Services (CAS) organization, and Accounts Management Program Intranet web
                sites; and the Internal Revenue Manual to identify the Program’s mission.
             2. Interviewed the W&I Division Directors for the CAS organization and the
                Accounts Management Program and the appropriate Program managers to
                determine their interpretations of the Program’s purpose and mission.
             3. Interviewed selected Atlanta Campus Accounts Management Program
                management, Customer Service Representatives, and Tax Examiner Technicians
                to determine whether the Program mission had been communicated to the front-
                line staff and obtained their interpretations of the Program’s purpose and mission.
        C. Evaluated whether the Accounts Management Program’s mission was logical.



1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 13
         The Accounts Management Program Has Annual Performance Goals
                but Should Develop Long-Term Performance Goals

II.   Determined whether Accounts Management Program management had set valid annual
      and long-term goals that focus on outcomes and reflect the Program’s purpose.
      A. Reviewed annual and long-term strategic plans for the Accounts Management
         Program to identify its goals.
      B. Evaluated long-term goals to determine whether they had the following elements:
         •   Outcomes that focus on the mission and the likelihood of the mission to yield
             intended outcomes (increased customer service).
         •   Established baselines.
         •   Clear time periods.
         •   Clear targets.
         •   Efficiency goals.
      C. Determined when and how short-term goals were established and how often these
         goals were adjusted/revised.
      D. Evaluated short-term goals to determine whether they demonstrate progress toward
         achieving the long-term goals and the impact of the adjustment/revision on achieving
         long-term goals.
      E. Conducted a walk-through of the Atlanta Campus Accounts Management Program to
         identify how telephone and correspondence responses to customer inquiries were
         processed and how these processes relate to the overall Program mission.
      F. Obtained Accounts Management Program documentation to identify and quantify
         workload inventory volumes and the resources (budget) used to run the various
         Program activities.
      G. Determined whether Accounts Management Program management collaborated and
         coordinated effectively with related programs (partners) that shared similar goals and
         objectives by interviewing the appropriate officials.
      H. Determined how each related program’s (partner’s) individual measurable goals were
         consolidated to produce IRS (Enterprise) measurable goals.
      I. Determined whether the Accounts Management Program worked with outside
         stakeholders in identifying its long-term goals.
      J. Determined whether the Accounts Management Program had taken steps to address
         any strategic long-term planning deficiencies.




                                                                                        Page 14
          The Accounts Management Program Has Annual Performance Goals
                 but Should Develop Long-Term Performance Goals

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Lynn Faulkner, Lead Auditor
Vacenessia Daniels Brown, Auditor
Jerry G. Douglas, Auditor
Stephanie M. McFadden, Auditor




                                                                                         Page 15
         The Accounts Management Program Has Annual Performance Goals
                but Should Develop Long-Term Performance Goals

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Director, Office of Research, Analysis, and Statistics RAS
Chief Financial Officer OS:CFO
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Financial Officer for Performance Budgeting OS:CFO:CPB
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Research, Wage and Investment Division SE:W:S:R
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief, Planning and Analysis, Wage and Investment Division SE:W:S:PA
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Planning and Performance Office OS:CFO:CPB:PP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   GAO/TIGTA Liaison, Chief Financial Officer OS:CFO
   Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 16
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                                                         Appendix IV


               Accounts Management Program
                    Organization Chart
                     Fiscal Year 2004




                                                               Page 17
           The Accounts Management Program Has Annual Performance Goals
                  but Should Develop Long-Term Performance Goals

                                                                                      Appendix V



               Accounts Management Program Performance Measures

The following narrative explains the types of performance measures used by the Internal
Revenue Service (IRS) to evaluate program activities and examples of Fiscal Year (FY) 2005
Accounts Management Program performance measures.
Outcome measures define the intended result, effect, or consequence that will occur from
carrying out a program or activity. With respect to programs, an outcome is an event or
condition that is external to the program or activity and is of direct importance to the intended
beneficiaries and/or the public. Outcome measures may be long- or short-term.
   •   Customer Service Representative Level of Service Rate.
   •   Customer Accuracy Rates.
       o Toll-Free Tax Law.
       o Toll-Free Accounts.
       o Customer Accounts Resolved (Adjustments).
Critical measures define a single set of measures that the IRS will use with external reviewers.
The IRS includes critical measures in the annual budget request; they are short-term measures.
   •   Customer Satisfaction and Dissatisfaction Rates.
       o Toll-Free.
       o Customer Accounts Resolved (Adjustments).
   •   Volume of Toll-Free Assistor Calls Answered.
   •   Volume of Customer Accounts Resolved.
Efficiency measures define the ratio of the outcome or output to the input of any program. They
are a description of the level at which programs are executed or activities are implemented to
achieve results while avoiding wasted resources, effort, time, and money. Efficiency measures
may be long- or short-term. This is a new performance measure for FY 2005.
   •   Volume of Accounts Management Customer Contacts per Staff Year.
       Contacts are Automated and Assistor Calls; Adjustments, Taxpayer Relations, and
       Employer Identification Number Paper; web service such as Internet Refund Fact of
       Filing; and other electronic services such as Electronic Tax Law Administration,
       Internet-Employer Identification Number Disclosure Authorization, and Preparer
       Taxpayer Identification Number.

                                                                                            Page 18
          The Accounts Management Program Has Annual Performance Goals
                 but Should Develop Long-Term Performance Goals

Balanced Program measures are used by the IRS to assess organizational performance at both the
strategic and operational levels. They include business results, customer satisfaction, and
employee satisfaction and may be long- or short-term.
   •   Volume of Customer Account Services Web Services.
   •   Volume of Toll-Free Assistor Services Provided.
   •   Average Speed of Answer Rate.




                                                                                      Page 19
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals

                                                         Appendix VI



         Management’s Response to the Draft Report




                                                               Page 20
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals




                                                               Page 21
The Accounts Management Program Has Annual Performance Goals
       but Should Develop Long-Term Performance Goals




                                                               Page 22
